        U.S. Department of Energy
        Office of Inspector General
        Office of Audit Services




Audit Report
The Department of Energy's
Management of Contractor Fines,
Penalties and Legal Costs




DOE/IG-0825                      September 2009
                              Department of Energy
                                Washington, DC 20585
                                   September 30, 2009


MEMORANDUM FOR THE SECRETARY

FROM:                    Gregory H. Friedman
                         Inspector General
SUBJECT:                 INFORMATION: Audit Report on "The Department of
                         Energy's Management of Contractor Fines, Penalties and Legal
                         Costs"

BACKGROUND
The Department of Energy reimburses its facility contractors for millions of dollars in
settlement costs and for fees paid to outside law firms for legal research, litigation and
consulting activities. Because of contract reform initiatives, the Department increased
contractor financial responsibility for certain legal costs. For example, fines and
penalties for violations of laws and regulations, which totaled almost $12 million over the
five-year period of our review, were found to be unallowable and were not reimbursed by
the Department. The Department specifically considers certain other costs to be
unallowable, such as those for punitive damages or in cases where contractor
management officials are found to have engaged in willful misconduct or have failed to
exercise prudent business judgment. Legal costs may also be disallowed if they are not
properly coordinated with Department officials.
A 1994 Office of Inspector General review, Inspection of Administrative Management
Procedures for Legal Services Acquired by Selected Management and Operating
Contractors (DOE/IG-0363), found weaknesses in the management of certain
contractors' legal costs. The inspection concluded that sites did not have adequate written
agreements with outside law firms and that one site was reimbursing costs that should not
have been allowed. The Department has since strengthened its management of legal
costs by adopting Legal Management Plans that outline Department requirements for
hiring outside counsel and Engagement Letters that define and limit the types of costs
that can be reimbursed when outside legal firms are used. The Department's contractors
incur and are reimbursed for significant legal expenses each year. Thus, we initiated this
audit to determine whether the Department's process for managing contractor fines,
penalties and other legal costs was effective.
RESULTS OF AUDIT
Our audit testing revealed that the Department did not fully implement processes for
managing the cost of legal services and settlements. We identified instances where
payments were made for costs that, in certain cases, were potentially unallowable.
Specifically, two of the four facility contractors we reviewed were permitted to claim
almost $300,000 in legal costs directly associated with unallowable fines and penalties.
We also identified other instances where facility contractors incurred questionable costs
                                              2

paid to outside legal firms. For example, some contractors paid law firms for expenses
that had not been reviewed and approved as required, including first class airfare, travel
expenses where no receipts were provided, and other costs normally treated as
unallowable.

The Department also allowed payment to contractors for a number of unauthorized
settlements and for settlements that were made without a review of the facts and
circumstances surrounding alleged contractor "managerial personnel" misconduct. The
term "managerial personnel" generally describes a very limited group of specifically
identified senior level contractor managers. The Department of Energy Acquisition
Regulation and the Department's Legal Management Requirements at 10 CFR 719,
permit the Department to review these cases for cost allowability. Such action was not
taken in these cases. Several responsible officials, in discussing this issue, argued that, as
an alternative, the government has the option of questioning costs based on the results of
subsequent audits or reviews. We concluded, however, that controls designed to prevent
or detect payments that may not be allowable on a real time basis are a more effective
means of reducing or eliminating such payments.

We concluded that these activities occurred because of weaknesses in controls at certain
contractor locations. In particular, Federal officials at some sites had not always
considered applicable regulations that prohibit payment of certain costs that are directly
associated with otherwise unallowable costs. Additionally, Department officials had not:
(1) required facility contractors to enforce the terms and conditions of legal Engagement
Letters; (2) fully considered the circumstances of legal actions before agreeing to
settlements; and, (3) conducted reviews to identify instances of "defined" senior
contractor management personnel misconduct or analyze recurring lawsuits and ensure
corrective actions were being taken to prevent future lawsuits for systemic problems.

While this audit was initiated prior to enactment of the American Recovery and
Reinvestment Act of 2009, it identifies yet another important risk factor that the
Department should consider as it moves to satisfy its statutory responsibilities. With the
large influx of funds at the contractor level, claims for similar settlements and outside
legal costs are likely to increase substantially. Given the significance of these costs, and
the potential for inappropriate reimbursement, we made a series of recommendations
designed to improve the effectiveness of controls over fines, penalties and other legal
costs.

MANAGEMENT REACTION

Management did not agree with the need to implement all corrective actions we
proposed, but did agree that some actions were necessary and proposed alternative
actions in each case. Management also did not completely concur with a number of the
conclusions presented in the report. We believe, however, that management's suggested
alternative actions are generally responsive to our recommendations. Management's
comments and our responses to each of its concerns are summarized in the body of our
report. The full text of those comments have been included as Appendix 3.
                                           3

Attachment

cc: Deputy Secretary
    Under Secretary for Nuclear Security
    Under Secretary of Energy
    Under Secretary for Science
    Chief of Staff
REPORT ON THE DEPARTMENT OF ENERGY'S MANAGEMENT OF
CONTRACTOR FINES, PENALTIES AND LEGAL COSTS


TABLE OF
CONTENTS

The Department's Processes for Managing Contractor Fines, Penalties and Other
Legal Costs

Details of Finding ................................................................................................................1

Recommendations and Comments.......................................................................................9


Appendices

1. Objective, Scope, and Methodology............................................................................16

2. Prior Reports ................................................................................................................18

3. Management Comments ..............................................................................................20
The Department's Processes for Managing Contractor Fines,
Penalties, and Other Legal Costs

Government                           Our review identified a number of instances where the
Reimbursement of                     Department of Energy's (Department) reimbursements of its
Questionable Costs                   facility contractors were inappropriate. Specifically, we found
                                     that facility contractors were being reimbursed for legal costs
                                     that were potentially unallowable. Certain of these costs
                                     should not have been paid because they had a direct association
                                     with an unallowable cost while others were generally
                                     prohibited under existing legal agreements, absent specific
                                     authorization. In addition to these questionable outside legal
                                     costs, we found that the Department reimbursed contractors for
                                     settlements that were either not approved or had not been
                                     reviewed to determine whether allegations of contractor
                                     management misconduct has merit. Department regulations
                                     specify that contractors shall not be reimbursed if the cause of
                                     the action was due to contractor management personnel 1
                                     willful misconduct or failure to exercise prudent business
                                     judgment.

                                                   Directly Associated Outside Legal Costs

                                     The Department reimbursed facility contractors for costs that
                                     were questionable because of their direct association with other
                                     unallowable costs. The costs of fines and penalties are, with
                                     certain limited exceptions, unallowable according to the
                                     Federal Acquisition Regulation (FAR) Part 31.205-15. Over
                                     the period of our review, one contractor was assessed six
                                     environmental fines and/or penalties totaling over $780,000.
                                     Because fines and penalties are unallowable under the FAR
                                     and the terms and conditions of the contract, the contractor did
                                     not seek reimbursement for those costs. The contractor did,
                                     however, seek and obtain reimbursement of $120,000 for
                                     outside legal costs that were directly associated with two of the
                                     fines and penalties even though provisions in FAR 31.205-
                                     47(b) specifically prohibit such reimbursements. The FAR
                                     requires that "Costs 2 incurred in connection with any
                                     proceeding brought by a Federal, State, local or foreign
                                     government for violation of, or a failure to comply with, law or
                                     regulation by the contractor . . . are unallowable if the result is

1
  A contractor's managerial personnel is defined in Department of Energy Acquisition Regulation 970.5245-1 as
directors, officers, and managers that have supervision or direction of substantially all the business or operations
of the contractor, either on the whole or all the activities at a major facility or operation.
2
  According to FAR 31.205-47(a), "Costs" include, but are not limited to, administrative and clerical expenses;
the costs of legal services, whether performed by in-house or private counsel; the costs of the services of
accountants, consultants, or others retained by the contractor to assist it; costs of employees, officers, and
directors; and any similar costs incurred before, during, and after commencement of a judicial or administrative
proceeding which bears a direct relationship to the proceeding.

________________________________________________________________
Page 1                                            Details of Finding
                      . . . imposition of a monetary penalty." According to contractor
                      attorneys, additional and unspecified costs for in-house support
                      and processing were also reimbursed. Based on our review of
                      the FAR requirement, we also consider these costs to be
                      questionable.

                      Similarly, another contractor was reimbursed by the
                      Department for over $170,000 for the same type of outside
                      legal fees directly associated with some of the unallowable
                      fines and penalties it incurred for environmental violations. By
                      contrast, two other contractors in our review were
                      implementing the "directly associated" requirements in
                      compliance with the FAR and did not seek Departmental
                      reimbursement for their costs associated with individual fines
                      and penalties. We believe the practice of disallowing outside
                      legal and contractor internal costs associated with fines and
                      penalties as demonstrated by the latter two contractors is
                      consistent with applicable FAR terms.

                                            Outside Legal Costs

                      The Department also permitted certain facility contractors to
                      incur costs for outside legal firms that should not have been
                      paid based on the terms of the Engagement Letters between the
                      contractors and outside legal firms. When facility contractors
                      obtain outside legal services, they use Engagement Letters to
                      define the types of costs that are allowed or specifically
                      prohibited. Engagement Letters are required by 10 Code of
                      Federal Regulations (CFR) Part 719.20 for retained legal
                      counsel expected to provide $25,000 or more in legal services
                      for a particular matter. We reviewed a number of litigation and
                      consulting cases at four contractors, many containing invoices
                      for several years of outside legal counsel support for an
                      individual case. We selected a small judgmental sample of
                      these invoices and noted numerous examples where certain
                      facility contractors reimbursed consultants and outside law
                      firms for specifically prohibited costs despite contrary
                      provisions in their Engagement Letters.

                      For example, consultants and outside legal firms were required
                      to follow the Federal Travel Regulation, which does not permit
                      reimbursement for first class travel and includes maximum per
                      diem amounts for hotels, meals, and incidentals unless these
                      expenses have been justified and specifically approved. There
                      are also additional cost limitations set forth in 10 CFR 719 that
                      include, for example, limitations for the cost of photocopying

________________________________________________________________
Page 2                                            Details of Finding
                      and reduced billing rates for time spent traveling. However,
                      facility contractors paid outside law firms and consultants for
                      many expenses that were not permitted in their Engagement
                      Letters. Examples of these costs included:

                         •   One contractor reimbursed three round trip first class
                             air tickets for consultants totaling about $4,800;
                         •   Another contractor paid almost $100 in excess of the
                             per diem hotel allowance for one overnight trip taken
                             by an outside attorney;
                         •   One contractor reimbursed a consulting firm more than
                             $6,800 in travel expenses with no receipts at all; and,
                         •   A third contractor paid attorneys their full billing rates
                             for time spent traveling. In one case alone, an attorney
                             billed full rates for 14 separate driving trips. While we
                             could not determine the exact amount of time spent
                             traveling versus conducting case work, by our estimates
                             these 14 trips included at least $950 in overcharges.
                             The same contractor reimbursed another attorney more
                             than $2,000 in similar overcharges for several trips.

                      While we were unable to select a statistical sample of invoices
                      because of record keeping methods and complexities related to
                      outside legal counsel invoicing, it is likely, based on the
                      internal control problems we identified in invoices we
                      randomly selected for review, that the same or similar errors
                      are distributed throughout the population of reimbursed legal
                      costs. All of the questioned costs we identified were
                      reimbursed by the Department.

                                              Settlement Costs

                      The Department also permitted two facility contractors to incur
                      costs for cases that were settled without a determination of the
                      appropriateness of the expenditures. Nine of these cases were
                      settled absent a documented review by the Department to
                      ensure that each settlement was appropriate. While another
                      five were approved, Department officials authorized the
                      payments without conducting a required post settlement review
                      to ensure that the actions surrounding the settlement did not
                      stem from misconduct on the part of the facility contractor.

                      The Department also did not object to the payment by one
                      contractor for the costs of nine settlements that Department
                      Counsel had not approved to be settled. The 10 CFR 719

________________________________________________________________
Page 3                                            Details of Finding
                      requires the establishment of a Legal Management Plan that,
                      among other things, can be used to establish dollar thresholds
                      for settlements that should be reviewed by the Department.
                      Although 10 CFR 719 established this requirement in 2001, the
                      contractor and Department had not yet finalized the Legal
                      Management Plan for the contractor in question at the time of
                      our review. These nine settlements were internal personnel
                      cases that totaled over $460,000, however, the settlements were
                      not submitted to Department Counsel for review. The
                      exclusion from review denied the Department the opportunity
                      to consider the matters that gave rise to the settlements to
                      determine whether the settlements were a prudent expenditure
                      of public funds. One of these cases alone was settled for
                      $180,000. Subsequent to our review, the contractor and the
                      Department finalized a Legal Management Plan requiring that
                      all settlements be reviewed and approved by the Department,
                      regardless of dollar value.

                      In response to our preliminary draft report, officials at the
                      location referred to above advised that those cases were
                      severance allowances or other internal human resources
                      matters. However, these cases were specifically designated as
                      legal costs by the contractor. For example, in one case, a
                      contractor attorney explicitly wrote that the action was a
                      settlement agreement and not a layoff. Also documented were
                      the facts that the contractor did not follow their traditional
                      layoff process, the amount of the settlement was more than the
                      contractor would have calculated for a layoff, and in return the
                      contractor had secured a signed release from any possible suit.
                      Another case specifically designated the payment as a legal
                      settlement.

                      Two contractors also incurred costs for and settled five cases
                      that were not reviewed for allowability. According to
                      Department of Energy Acquisition Regulation (DEAR)
                      970.5228-1(h), contractors shall not be reimbursed if the cause
                      of action was due to contractor managerial willful misconduct,
                      lack of good faith, or failure to exercise prudent business
                      judgment. According to 10 CFR 719, Appendix, Section 5.1,
                      underlying causes for incurrence of costs such as those
                      described in the DEAR or other findings of liability, fault, or
                      avoidability are a separate consideration and may be
                      determinative of the allowability of the legal costs. We
                      discovered several cases where field office officials should
                      have reviewed the facts of the case to determine whether costs
                      should have been disallowed based on the above factors.

________________________________________________________________
Page 4                                            Details of Finding
                      For example, one facility contractor incurred costs for a
                      settlement and associated legal costs of well over $1 million
                      without a fully documented review by the Department of the
                      terms and circumstances of the case. In this particular case,
                      fraud and breach of contract on the part of a defined contractor
                      management official were alleged. The case was settled at the
                      direction of the court, and, despite Departmental coordination
                      on many aspects of the case, an allowability determination was
                      not documented by officials at the field location. At another
                      site, the contractor expended funds for potentially unallowable
                      costs of defending itself against allegations of management
                      retaliation that named defined contractor management
                      personnel. The contractor at this location had a series of legal
                      cases in our sample that alleged management retaliation for
                      certain actions, such as making protected disclosures. Four of
                      these cases were settled without a separate analysis by field
                      officials to determine the causes of the separate but similar
                      cases and whether there was management misconduct.

                      To illustrate the importance of reviewing the circumstances
                      surrounding various types of settlements, we noted that the
                      Department did review the factual basis for a recent wrongful
                      termination case and found that approximately 90 percent of
                      the multi-million settlement was punitive in nature and
                      therefore unallowable. This approach protected the
                      Government's rights because the settlement was based on a jury
                      decision that found that the contractor acted in a fraudulent,
                      willful and reckless manner, making the majority of costs
                      unallowable because they were punitive in nature. In the
                      interest of protecting taxpayer funds, Government field office
                      officials should examine the factual basis behind all prior
                      settlements made by contractors to determine whether their
                      costs are allowable.

Implementation of     Excessive and potentially unallowable costs were
of Regulations        incurred by the Department because of cost control weaknesses
                      at certain sites. The Department incurred legal costs directly
                      associated with fines and penalties because neither field site
                      office officials nor facility contractor personnel considered
                      applicable acquisition standards that prohibit such expenses.
                      Other potentially unallowable costs were paid because neither
                      the facility contractors nor Department reviewers enforced the
                      terms of Engagement Letters and identified and removed non-
                      conforming charges from outside legal contractor invoices
                      prior to payment. Facility contractors also paid questionable

________________________________________________________________
Page 5                                            Details of Finding
                      settlements because the Department had not established
                      required Legal Management Plans to, among other things,
                      establish settlement authority amounts. Additionally, certain
                      Federal field site officials, in some instances, were not
                      conducting reviews of cases to make a determination, as
                      required in DEAR 970.5228-1(h) and 10 CFR 719, Appendix,
                      Section 5.1, whether contractor management acted with
                      potentially questionable business judgment or was displaying a
                      pattern of impropriety that might require corrective actions to
                      prevent them from recurring.

                                   Payment of Directly Associated Costs

                      The Department contractors paid potentially unallowable,
                      directly associated costs at two of the four sites we visited
                      because the Contracting Officers were not fully considering
                      provisions in the FAR applicable to directly associated legal
                      costs. One of the Contracting Officers believed that these
                      types of costs for outside legal fees were allowable based on
                      general provisions in FAR 31.205-47. However, while the
                      FAR states that outside legal costs are generally allowable, it
                      also specifies at FAR 31.205-47(b) that such costs are
                      unallowable if in connection with any violation of a law or
                      regulation, i.e. a fine or penalty, that results in a monetary
                      penalty. As a matter of clarification, Department headquarters
                      officials pointed out that associated costs may be allowable to
                      the extent the proceeding is resolved by consent or compromise
                      by the Government, but this was not the case with the fines and
                      penalties discussed earlier.

                      We solicited an opinion from the Department's Office of the
                      General Counsel on this topic. The response was an evaluation
                      of the FAR 31.205-47 provisions, including a conclusion that
                      costs related to imposition of a monetary penalty should be
                      disallowed. Additionally, outside legal costs associated with
                      fines and penalties were disallowed at the two other locations
                      we visited. At these other locations, the Department went one
                      step further and also disallowed all of the contractor's internal
                      costs associated with the fines and penalties – including
                      (in-house) Counsel costs.

                          Reimbursement of Other Potentially Unallowable Costs

                      Questionable costs were also paid because Department and
                      contractor invoice reviews were not sufficient to ensure that all
                      potentially unallowable costs were discovered and omitted

________________________________________________________________
Page 6                                            Details of Finding
                      from payment in accordance with Engagement Letters. The
                      Department is responsible for reviewing invoices for outside
                      legal services submitted to the Department for reimbursement
                      by a facilities contractor. These reviews include all invoices
                      unless Streamlined Litigation Management procedures have
                      been approved, in which case they are done annually on a
                      sample of invoices. The implementation of Streamlined
                      Litigation Management procedures at two locations had
                      resulted in reduced Federal review because not all invoices are
                      included and, in one case, the review had not been conducted
                      in several years. Facility contractors must review outside legal
                      counsel invoices, which were required to be submitted monthly
                      according to the terms and conditions of engagement letters for
                      the cases we reviewed.

                      At three of the four locations we visited, despite the availability
                      of Engagement Letters to identify the terms and conditions of
                      the outside attorney's work, and detailed checklists to identify
                      prohibited costs, Department and facility contractor officials
                      did not identify many costs that, based on our review, should
                      have been disallowed. Under procedures established by the
                      Department's Office of the General Counsel, both facility
                      management contractor Legal Counsel and Department
                      Counsel must separately review invoices from outside legal
                      firms. At one location, we found that contractor Counsel was
                      approving outside legal costs that would normally be
                      unallowable without justification or explanation for the
                      charges, even after an administrative review of the invoice
                      identified the unallowable cost for non-payment.

                      Even in cases where either the Department or the facility
                      contractors identified and disallowed certain costs such as copy
                      expenses that exceed prescribed limits, law firms would
                      continue to invoice higher rates month after month afterwards.
                      In some cases, our review identified that costs were reimbursed
                      by contractors because reviewers failed to identify and disallow
                      the costs. Outside legal firms are required to include
                      certifications with every invoice stating that "under penalty of
                      law" the bill is truthful and accurate, and services and charges
                      comply with the terms of engagement. However, we did not
                      find any cases where penalties were invoked against outside
                      law firms for continuously submitting invoices that did not
                      meet these conditions.

                      Also, while one of the locations was approved to conduct its
                      oversight using Streamlined Litigation Management
                      procedures, the required annual review had been performed

________________________________________________________________
Page 7                                            Details of Finding
                      only once since 2001. Specifically, the site Counsel's Office
                      performed a review of litigation files for Fiscal Year (FY) 2004
                      during April and May, 2005. This review noted many
                      nonconforming charges including, for example, billings for
                      multiple attorneys attending a single meeting, and a law firm
                      billing for meals when they were not in travel status. Both of
                      these types of costs are not permitted under Department
                      regulations without specific justification or advance written
                      approval from Department Counsel. However, the report was
                      never finalized, so it does not appear that any corrective actions
                      were taken. Prior to this, a review had not been conducted
                      since April 2001 because there was a two-year delay in filling
                      the vacant Counsel position at the site. While the site office
                      Counsel attempted to schedule a review in FY 2007, the review
                      never occurred.

                                          Approval of Settlements

                      One contractor was permitted to incur unapproved settlements
                      because the site office had not yet finalized the contractor's
                      Legal Management Plan. The purpose of such plans is to
                      define, among other things, the interaction between the
                      Department and the contractor, the contractor's corporate legal
                      approach, and a description of the legal matters that may
                      necessitate handling by retained legal counsel. While 10 CFR
                      719 required that such a plan be developed in 2001, the plan
                      for the particular contractor we reviewed had not been finalized
                      and approved by the time we began our review in 2008. As
                      evidenced by various memoranda, the lack of a finalized plan
                      resulted in a number of instances where the contractor and
                      Department field office Counsels were in disagreement with
                      legal approaches and other legal issues. For example, the draft
                      Plan set forth the requirements for when the contractor must
                      obtain Department field office approval to settle contractor
                      litigation and claims. Since this Plan was not finally approved,
                      however, several settlements were approved by the contractor
                      without the knowledge of the Site Office Counsel or the
                      Contracting Officer. Subsequent to completion of our audit
                      field work we learned that the Plan had been agreed to and had
                      been finalized.

                      Even now that a Legal Management Plan is in place that, based
                      on our reading, requires that all settlements be reviewed,
                      contractor counsel asserts that certain personnel related
                      settlements are excluded from the Plan's requirements. As



________________________________________________________________
Page 8                                            Details of Finding
                     indicated earlier, the contractor reimbursed nine settlements
                     without Department approval. However, the contractor
                     contends that the settlements were limited to personnel matters.
                     As we noted earlier, these settlements were claimed as legal
                     costs and specifically designated as settlements in the
                     applicable case files. Since these settlements aggregated in the
                     hundreds-of-thousands of dollars, we believe clarification of
                     how to handle these matters should be a component of the
                     Legal Management Plan.

                     The Department also allowed payment to two contractors for
                     the cases that were settled but not reviewed for allowability
                     because it did not conduct and document analyses of whether
                     liabilities were caused by "defined" contractor managerial
                     personnel's willful misconduct, lack of good faith, or failure to
                     exercise prudent business judgment. While such a
                     determination would not be warranted in most cases, we did
                     find certain cases such as those described earlier that alleged
                     fraud, breach of contract, and retaliation against employees that
                     made protected disclosures by facility contractor "defined"
                     management personnel.

Funds Better         As a result of not fully monitoring costs and finalizing legal
Spent                management plans, the Department is using funds to pay for
                     legal costs that could be better spent on activities benefiting the
                     Department's mission. In total, the four facility contractors we
                     reviewed spent more than $105 million in settlements and
                     outside legal costs during the five-year period of our review.
                     While a majority of these costs were allowable under the
                     Department's regulations, our audit work shows that the total
                     amount could be reduced through disallowance of certain costs
                     associated with fines and penalties. This amount could also be
                     reduced through more diligent cost reviews and consideration
                     of the types and similarities of legal cases at the Department's
                     facility contractors.

RECOMMENDATIONS      To address the weaknesses associated with the payment of
                     unallowable costs and the review and approval of settlements,
                     we recommend that:

                        1. The Senior Procurement Executive, National Nuclear
                           Security Administration (NNSA):

                                a. Issue guidance to ensure that site offices follow
                                   provisions of the FAR with respect to
                                   disallowing costs directly associated with

________________________________________________________________
Page 9                              Recommendations and Comments
                                  otherwise unallowable costs, including costs for
                                  facility contractor staff time and efforts; and,

                               b. Direct Contracting Officers at two locations to
                                  review the directly associated costs identified in
                                  our audit and make allowability determinations,
                                  and recover unallowable costs as appropriate.

                        2. The Senior Procurement Executives for both the
                           Department and the NNSA direct Contracting Officers
                           to ensure, in conjunction with field site Counsels as
                           deemed appropriate, the following actions are taken:

                               a. Define amounts for and review high-value
                                  outside law firm invoices from April 1, 2003,
                                  through March 31, 2008, identify and make
                                  allowability decisions on costs that are not in
                                  accordance with Engagement Letters, and
                                  recover unallowable costs from facility
                                  contractors as appropriate;

                               b. Require facility contractors to either terminate
                                  the agreement or impose available remedies in
                                  cases where outside law firms continue to bill
                                  for the same unallowable fees that do not adhere
                                  to the terms and conditions of legal agreements;
                                  and,

                               c. Review the reasons for incurrence of fines
                                  and/or penalties for certain legal cases, such as
                                  instances where there is an indication of a
                                  "defined" contractor management personnel
                                  failure to exercise prudent business judgment,
                                  and document an allowability determination
                                  before agreeing to reimburse such costs.

                        3. The Department's Office of the General Counsel (OGC)
                           and the NNSA OGC:

                               a. Work with field sites to ensure that all locations
                                  have appropriate Legal Management Plans in
                                  place; and,

                               b. Determine the need to revise regulations to
                                  require that Legal Management Plans define the



________________________________________________________________
Page 10                             Recommendations and Comments
                                    types of settlements that would require the
                                    contractor to obtain the Department's approval.

MANAGEMENT           We received comments from the Associate Administrator
REACTION             for Management and Administration, NNSA, including
                     technical comments from the NNSA Office of the General
                     Counsel. Also, we received comments from the Department’s
                     Director, Office of Procurement and Assistance Management
                     (OPAM) including technical comments from the Department’s
                     Office of the General Counsel (OGC).

                     Each of the responding elements expressed some level of
                     concurrence with the need to implement actions in the
                     recommendations, but suggested alternate actions in many
                     cases. Additionally, each responding element questioned the
                     applicability of some of the cited regulations, such as
                     allowability determinations in cases of potential management
                     misconduct and the imposition of financial penalties for outside
                     legal firms that submit invoices with unallowable costs.

                     NNSA concurred with recommendation 1 and provided
                     corrective actions as well as expected implementation dates.
                     For recommendations 2 and 3, NNSA either provided alternate
                     actions or advised that actions were already in place to address
                     the recommendations. For recommendation 2a., NNSA stated
                     that most Site Offices conduct a 100 percent review, but
                     suggested that the Contracting Officer at each site conduct a
                     review of high value invoices to ascertain whether further
                     reviews are warranted. For recommendation 2b., NNSA
                     suggested that the Department does not have authority to
                     require facilities contractors to impose penalties on outside
                     legal firms, but did suggest that consideration be given to
                     terminating engagements with firms that continue to bill for
                     unallowable expenses, and advised that a new Performance
                     Evaluation Plan objective will be put in place to evaluate
                     contractors' abilities to successfully manage litigation. For
                     recommendation 2c., NNSA contends that it currently reviews
                     the reasons for incurrence of certain legal cases as a matter of
                     course. For recommendation 3, NNSA advises that all Site
                     Offices currently have Legal Management Plans in place.

                     OPAM offered alternatives to recommendation 2. For
                     recommendation 2a., OPAM suggested that the OGC review
                     the procedures at each site to ensure they are properly
                     implemented and conduct a more in depth review where they
                     are not. For recommendation 2b., OPAM suggested the OGC

________________________________________________________________
Page 11                             Recommendations and Comments
                     should ensure each contractor consider terminating a law firm's
                     service and consider not employing the firm in the future for
                     those that continue to bill for unallowable costs. For
                     recommendation 2c., OPAM suggested that, rather than
                     requiring the Contracting Officer to make a determination
                     separate from the OGC, the recommendation should state that
                     the OGC ensure it takes extra care in reviewing the underlying
                     facts leading to the lawsuit when it sees a pattern of cases
                     involving the same issue.

                     The OGC made several comments on recommendations 2 and
                     3. For recommendation 2a., OGC stated that a review of every
                     outside invoice from 2003 to 2008 would be extremely
                     resource intensive and may cost more than any return it might
                     provide. Also, OGC states that Department counsels already
                     review all invoices prior to payment. Further, OGC attempts to
                     put the facts of the review into perspective by stating that the
                     report identified approximately $300,000 in potentially
                     unallowable costs out of about $105 million in settlements and
                     outside legal costs, which equates to 0.3 percent of the amount
                     approved for reimbursement.

                     For recommendation 2b., OGC's comments echo those of
                     NNSA and OPAM with regard to considering termination of a
                     legal firm and possible refusal to re-hire the firm in the future.
                     For recommendation 2c., OGC advises that there is not a
                     requirement for a Contracting Officer to make a separate
                     determination of cost allowability, and points out that the
                     designation of Department counsel as a Contracting Officer
                     Representative is meant to provide coordination and a better
                     understanding of cost issues. Additionally, OGC points out
                     that Department counsel reviews the circumstances of each
                     case prior to approving outside counsel costs for
                     reimbursement, and in some instances, has resulted in a
                     Departmental decision to not approve all or part of the outside
                     legal costs. Finally with regard to this recommendation, OGC
                     refers to the 48 CFR 952.231-71 clause which states that the
                     willful misconduct, lack of good faith, etc. must have been
                     committed by one of the managerial personnel listed in the
                     facilities contract.

                     For recommendation 3, OGC agrees that it should ensure Legal
                     Management Plans are in place at all locations, but states that
                     the provisions of 10 CFR 719 do not require the plans have a




________________________________________________________________
Page 12                             Recommendations and Comments
                     specific citation on settlement authority, although such a
                     citation could exist and it would be a good idea to encourage
                     inclusion of such authority.

AUDITORS             Management's comments and alternatively proposed
COMMENTS             actions, in most cases, are largely responsive to our
                     recommendations and should, when fully implemented, result
                     in improvements to the Department's management of outside
                     legal costs. As appropriate, we made revisions to our report
                     and recommendations in response to management comments.

                     Recommendation 2 is not meant to suggest that Contracting
                     Officers bear the full burden of managing outside legal costs or
                     that they should be required to conduct independent
                     evaluations and analyses. We agree it is logical that the
                     Department's Counsel be heavily involved in these actions, and
                     have added clarifying language to the recommendation.
                     However, only the Contracting Officers have the ultimate
                     authority to direct facilities contractors to take actions or
                     disallow certain costs.

                     With regard to recommendation 2a., we believe NNSA's
                     suggestion to review high-dollar invoices and expand the
                     review if it is deemed necessary is responsive and addresses the
                     perception that the costs of a review of all invoices could
                     outweigh its benefit. To that end, we revised the
                     recommendation from the Draft report to include identification
                     of high-value invoices for review. We do not believe that a
                     review limited to procedures at each site would be fully
                     beneficial because our audit demonstrated that existing
                     procedures were not completely effective. For example,
                     procedures existed to review outside costs, including detailed
                     checklists, but some unallowable costs were still reimbursed.
                     As another example, a procedure existed for one field site to
                     conduct annual audits of outside costs, however, that review
                     had been conducted one time since 2001.

                     For recommendation 2b., we agree that consideration of
                     terminating an agreement with an outside firm for continuing
                     to submit unallowable costs, and potentially refusing to hire the
                     firm again, would be penalties that could improve the
                     management of outside legal costs. However, we did not
                     identify any instances where field sites were considering such
                     penalties and believe some proactive actions are necessary to
                     ensure these options are considered in the future. Specifically,
                     there were no written records to indicate field sites were

________________________________________________________________
Page 13                             Recommendations and Comments
                     considering these or any other penalties. For recommendation
                     2c., we are not asserting that a Contracting Officer be forced to
                     make an allowability determination separate from Department
                     Counsel, nor are we suggesting that there is requirement to
                     make such a determination in every legal case. As discussed
                     earlier, the Contracting Officer should "ensure" this action is
                     taken. We agree with management's assertion that the
                     Contracting Officer should be relying on the expertise of
                     Department Counsel, and changed the wording of our
                     recommendation to make this more clear. However, any
                     actions to disallow costs as a result of Counsel's determination
                     are ultimately the responsibility of the Contracting Officer.

                     Further, our report states that an allowability determination
                     should have been made in five specific cases in which there
                     was at least the appearance that defined contractor management
                     acted with willful misconduct, lack of good faith, or failure to
                     exercise prudent business judgment. We recognize this where
                     we note that such a determination would not be warranted in
                     most cases, however these five cases alleged fraud, breach of
                     contract, and retaliation against employees that made protected
                     disclosures by defined facility contractor management
                     personnel. Each of these five cases alleged such actions
                     against management personnel specifically named in the
                     facilities management contract. Given these circumstances, we
                     believe it is prudent for officials at the field site to exercise
                     their option under 10 CFR 719, Appendix 5.1, to make such a
                     determination. Also, although not specifically a requirement of
                     the CFR, we believe it would be prudent to document such an
                     analysis since these types of considerations were not
                     transparent in the files we reviewed. Such an analysis was
                     created for one of the cases we reviewed.

                     For recommendation 3, we agree with OGC that the CFR does
                     not specifically require settlement authority to be included in a
                     Legal Management Plan. During our exit conference, OGC
                     management stated that the CFR had been in its current form
                     for approximately eight years and that it may be time for a
                     review and revision of this regulation in light of the findings in
                     our report. We believe this is a positive step toward improving
                     the management of contractor fines, penalties and legal costs.
                     Accordingly, we modified our report to recommend that
                     management determine the need to revise the regulation to add
                     direction on the types of settlements that require Department
                     review and approval.



________________________________________________________________
Page 14                             Recommendations and Comments
                     Finally, we believe OGC did not give sufficient consideration
                     to a number of facts set forth throughout the audit report in its
                     assessment that the audit identified approximately $300,000 in
                     potentially unallowable costs of about $105 million in
                     settlements and outside legal costs, which equates to 0.3
                     percent. While we cited only specific examples, unless the
                     control weaknesses identified in our report are corrected, it is
                     likely that additional problems will recur.




________________________________________________________________
Page 15                             Recommendations and Comments
Appendix 1

OBJECTIVE             To determine whether the Department of Energy (Department)
                      has effective processes for managing contractor fines, penalties
                      and other legal costs.

SCOPE                 We conducted the audit from April 2008 to May 2009 at
                      Department of Energy Headquarters in Washington, D.C., and
                      four facility contractors. We did not disclose the identity of the
                      contractors chosen because of our concerns related to
                      confidentiality requirements for legal settlements and details of
                      ongoing legal cases.

                      In addition, we collected information from all facility
                      contractors in the Department to determine the total amount of
                      fines and penalties, and outside legal costs. Our review
                      included fines, penalties and legal costs, including settlements,
                      incurred from April 1, 2003, through March 31, 2008.

METHODOLOGY           To accomplish the audit objective, we:

                         •   Reviewed applicable Federal laws and regulations
                             related to the management of contractor fines, penalties
                             and other legal costs;

                         •   Reviewed policies and procedures for administration of
                             Engagement Letters, Legal Management Plans, and
                             other requirements for outside legal costs at local field
                             sites;

                         •   Held discussions with Department and facility
                             contractor officials regarding management of fines,
                             penalties and other legal costs;

                         •   Conducted a data request to obtain information on all
                             fines and penalties, and outside legal costs at each of
                             the Department's facility contractors; and,

                         •   Selected a statistical sample of outside legal costs for
                             sites visited, and examined a judgmental number of
                             invoices from legal firms to identify whether costs were
                             in accordance with Engagement Letters.

                      We conducted this performance audit in accordance with
                      generally accepted Government auditing standards. Those
                      standards require that we plan and perform the audit to obtain
                      sufficient, appropriate evidence to provide a reasonable basis


________________________________________________________________
Page 16                            Objective, Scope, and Methodology
Appendix 1 (continued)

                      for our findings and conclusions based on our audit objectives.
                      We believe that the evidence obtained provides a reasonable
                      basis for our findings and conclusions based on our audit
                      objectives. Accordingly, the audit included reviews of
                      Department and regulatory policies, procedures, and
                      performance measures related to the Department's facility
                      contractor fines, penalties and other legal costs. We assessed
                      performance measures in accordance with the Government
                      Performance and Results Act of 1993 and concluded that the
                      Department had not established performance measures related
                      to contractor fines, penalties and other legal costs. Because our
                      review was limited, it would not necessarily have disclosed all
                      internal control deficiencies that may have existed at the time
                      of our audit. We did not conduct a full reliability assessment
                      of computer-processed data. However, we deemed the data to
                      be sufficiently reliable to achieve our audit objective.

                      The exit conference was held with management on
                      September 10, 2009.




________________________________________________________________
Page 17                            Objective, Scope, and Methodology
Appendix 2

                                      PRIOR REPORTS

Office of Inspector General

   •   Inspection of Administrative Management Procedures for Legal Services Acquired by
       Selected Management and Operating Contractors, (DOE/IG-0363, December 1994).
       The inspection found that additional management attention was needed by the
       Department of Energy (Department) to improve the controls over the acquisition of
       outside legal services, including litigation, by Management and Operating (M&O)
       contractors. The inspection found that acquisitions of legal services by M&O
       contractors did not always go through approved procurement systems; that payments
       were being made to outside law firms without any written agreement to support the
       scope or nature of the services being provided; and that reviews of the costs for
       outside legal services were being reviewed without regard to the Federal and
       Department Acquisition Regulations cost principles, and without the benefit of any
       written agreement which outlined the basis for incurring costs. Several
       recommendations were made to improve the controls over acquisition of outside
       litigation services obtained by M&O contractors, and to improve the review of
       charges for these services.

U.S. Government Accountability Office

   •   Department of Energy: Reimbursement of Contractor Litigation Costs, (GAO-04-
       148R, November 2003). This study was performed in response to an information
       request to determine the extent to which the Department reimbursed its contractors'
       litigation costs and the processes for doing so. The Government Accountability
       Office (GAO) found that the Department reimbursed its contractors for $330.5
       million in litigation costs from Fiscal Year 1998 through March 2003, including
       $259.4 million for litigation costs and $81.1 million for judgments and settlements.
       The GAO also determined that the criteria the Department used to reimburse
       contractors depended on the nature of the case, but that the Department paid all
       reasonable costs in most cases with several exceptions. Among others, this included
       instances of when the contractor's actions involved either willful misconduct, lack of
       good faith; or failure to exercise prudent business judgment by the contractor's
       managerial personnel.

   •   Department of Energy: Contractor Litigation Costs (GAO-02-418R, March 2002).
       This study was performed in response to an information request to determine what
       laws and regulations provide for the Department to reimburse its contractors for the
       litigation, settlement and judgment costs in cases brought against them, and provide
       information as to the number of cases and the costs that the Department reimbursed
       its contractors and that contractor's paid themselves. The report stated that the
       Federal and Department acquisition regulations provide for the Department to
       reimburse contractors reasonable costs. Such costs are not reimbursable if the
       liability is related to the contractor's willful misconduct, lack of good faith, or failure
       to exercise prudent business judgment.

___________________________________________________________________
Page 18                                                  Prior Reports
Appendix 2 (continued)

  •   Managing DOE: The Department of Energy is Making Efforts to Control Litigation
      Costs (GAO/RCED-95-36, November 1994). GAO found that the Department had
      not kept centralized data on costs reimbursed to contractors for outside litigation, and
      lacked effective criteria spelling out what costs it would reimburse. As a result, the
      Department was being billed at higher rates than other federal agencies for legal fees,
      travel, word processing and photocopying and legal bills were being reimbursed with
      little or no Departmental oversight. The audit found that the Department had begun
      to strengthen its controls over legal costs. In particular, the Department issued
      specific cost guidelines and instituted procedures for periodically reporting all
      litigation costs. In addition, the Department was also establishing an audit function to
      enable it to conduct detailed reviews of the bills it receives for legal services, and
      consolidating cases involving multiple contractors and law firms to improve
      management and reduce costs.




___________________________________________________________________
Page 19                                                  Prior Reports
Appendix 3




___________________________________________________________________
Page 20                                         Management Comments
Appendix 3 (continued)




___________________________________________________________________
Page 21                                         Management Comments
Appendix 3 (continued)




___________________________________________________________________
Page 22                                         Management Comments
Appendix 3 (continued)




___________________________________________________________________
Page 23                                         Management Comments
Appendix 3 (continued)




___________________________________________________________________
Page 24                                         Management Comments
                                                             IG Report No. DOE/IG-0825

                       CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of
its products. We wish to make our reports as responsive as possible to our customers'
requirements, and, therefore, ask that you consider sharing your thoughts with us. On the
back of this form, you may suggest improvements to enhance the effectiveness of future
reports. Please include answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding
   this report?

2. What additional information related to findings and recommendations could have
   been included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's
   overall message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the
   issues discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should
   we have any questions about your comments.


Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector
General at (202) 586-0948, or you may mail it to:
                           Office of Inspector General (IG-1)
                                 Department of Energy
                                Washington, DC 20585

                              ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Felicia Jones at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

              U.S. Department of Energy Office of Inspector General Home Page
                                  http://www.ig.energy.gov

  Your comments would be appreciated and can be provided on the Customer Response Form.
